No. 20-177

In the Supreme Court of the United States
ALLY FINANCIAL INC.,
Petitioner,
v.
ALBERTA HASKINS, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Nicole A. Saharsky, counsel for Amici Curiae and a member of the Bar of this
Court, hereby certify that on this 17th day of September, 2020, I caused a copy of the
Brief of the Chamber of Commerce of the United States of America, the American
Bankers Association, the American Financial Services Association, and the National
Automobile Dealers Association as Amici Curiae in Support of Petitioner to be served
by email upon:
Paul Reinherz Quitman Wolfson
Wilmer Cutler Pickering Hale and Dorr,
LLP
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006
(202) 663-6390
paul.wolfson@wilmerhale.com

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, N.W, Suite 213
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
Attorney for Respondents

Attorney for Petitioner
I further certify that all parties required to be served have been served.
/s/ Nicole A. Saharsky
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
nsaharsky@mayerbrown.com

